No. 19A-108

<3n i\\t
(Houri n{ tip

$>Mts

Mark Thompson
(Petitioner,
v.

Board of Education City of Chicago, et al.
([Respondents.
On Petition for A Writ of Certiorari to the United States
Court ofAppeals for the Seventh Circuit
CERTIFICATE OF SERVICE
1, Mark Thompson, pro se, hereby certify that on this 23rd day of April, 2020, all parties
required to be served have been served copies of the Petition for A Writ of Certiorari in this
matter by overnight courier to the addresses below or their email address as requested.
Thomas A. Doyle
Board of Education City of Chicago
1 North Dearborn Street, Suite 900
Chicago, IL 60602
Attorney for Chicago Board ofEducation,
Harold Ardell, Linda Brown, Forrest
Claypool, Reginald Evans, Thomas Krieger,
James Sullivan, and Alicia Winckler.
Christopher A. Garcia
GARCIA LAW GROUP
20 Danada Square West, Suite 221
Wheaton, IL 60187
cag@employerlaw.us
Attorney for Jane Doe
Joseph E. Comer
Barker, Castro, Kuban & Steinback LLC
303 West Madison StreetSuite 700
Chicago, IL 60603
Attorney for Northshore University
HealthSystem and Dr. Claudia P. Welke

David J. Aron
LaRose & Bosco, Ltd.
200 North LaSalle, Suite 2810
Chicago, 1L 60601
Attorney for Dan Nielsen
John J. Skawski
Skawski Law Offices, LLC
1220 Kensington Road, Suite 222
Oak Brook, IL 60523
Attorney for Jane Doe’s mother

Mark Thompsojii 7
Petitioner, Pro Se
P.O. Box 8878
Champaign, IL 61821
drmarkthompson@aol.com
(217) 480-6256
April 23, 2020

